 OFFICE OF INSPECTOR GENERAL
   for the Millennium Challenge Corporation


 REVIEW OF THE MILLENNIUM 

 CHALLENGE CORPORATION’S 

 PROGRESS IN ACHIEVING ITS 

 PLANNED ORGANIZATIONAL 

 STRUCTURE AND BEGINNING ITS 

 ASSISTANCE PROGRAMS 





AUDIT REPORT NO. M-000-06-001-S
May 16, 2006




WASHINGTON, DC
(This page intentionally left blank)
Office of Inspector General
 for the
Millennium Challenge Corporation



          May 16, 2006

          MEMORANDUM

          FOR:                 Chief Executive Officer, Millennium Challenge Corporation,
                               John Danilovich

          FROM:                Assistant Inspector General for the Millennium Challenge Corporation,
                               John Phee /s/

          SUBJECT:             Review of the Millennium Challenge Corporation’s Progress in Achieving Its
                               Planned Organizational Structure and Beginning Its Assistance Programs
                               (Report No. M-000-06-001-S)

          This memorandum transmits our final report on the subject review. In finalizing this report,
          we considered your comments on our draft report and have included those comments in
          their entirety as Appendix II in this report.

          This report includes six procedural recommendations for corrective action. Based on your
          written comments to our draft report, management decisions have been reached on all six
          recommendations. Final action for these recommendations must be determined by MCC,
          and we ask that we be notified of MCC’s actions.

          I appreciate the cooperation and courtesy extended to my staff during the review.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
(This page intentionally left blank)
CONTENTS

Background .......................................................................................................................................1 


Review Objectives...............................................................................................................................1 


Review Findings................................................................................................................................2


          What progress has the Millennium Challenge 

          Corporation made in achieving its planned 

          organizational structure? .........................................................................................................2 


          What is the status of the Millennium Challenge
          Corporation’s compact development process? .......................................................................4 


          What progress has the Millennium Challenge 

          Corporation made in complying with the 

          Millennium Challenge Act of 2003 and other 

          applicable Federal laws and regulations? .............................................................................10 


Conclusions and Recommendations ............................................................................................13 


          MCC Needs to Develop a Security Clearance Policy............................................................13 


          MCC Needs to Modify Its Section 609(g) Policy ...................................................................15 


          MCC Needs to Develop a Policy Addressing Selection of Countries....................................16 


          MCC Needs to Develop an Integrated Human Resource System ........................................18 


          MCC Needs to Provide COTR Designation Letters ..............................................................19 


          MCC Needs to Develop a Reporting Format for USAID .......................................................20 


Evaluation of Management Comments .........................................................................................21 


Appendix I - Scope and Methodology ...........................................................................................23 


Appendix II - Management Comments ..........................................................................................24 


Appendix III – Table A-1: Status of Eligible Countries By Region..............................................29 


Appendix IV – Table A-2: Status of MCC’s Threshold Countries ..............................................33 

(This page intentionally left blank)
BACKGROUND

The Millennium Challenge Corporation (MCC) was established on January 23, 2004 to
administer the Millennium Challenge Account (MCA). Its mission is to provide
development assistance to countries that rule justly, invest in their people, and
encourage economic freedom. This assistance is provided through compacts—
agreements between the U.S. government and recipient countries’ governments. Now
in its third year of operations, MCC is steadily transforming itself from a start-up
organization to a fully-fledge operating organization and structuring itself to be among
the countries’ largest donor.

Since its establishment, MCC has selected a total of 23 countries that are eligible to
receive MCA assistance. (See Appendix III for Status of Eligible Countries by Region.).
Of those 23 countries, at the time of this review, MCC had signed compacts with five:
Madagascar, Honduras, Cape Verde, Nicaragua and Georgia. Additionally, MCC’s
Board of Directors had approved compacts—expected to be signed in the immediate
future—with three additional countries: Armenia, Vanuatu and Benin.1 MCC is actively
engaging with other eligible countries to assist them in developing a successful compact.

In its commitment to work with underperforming countries, MCC also provides funding to
countries that did not quite make the eligible list but are committed to implementing
specific reform policies to eventually qualify for MCA assistance. At the time of our
review, MCC had selected 18 countries to participate in this program, known as the
threshold program. Two countries, Burkina Faso and Malawi, have threshold country
plans in place and three countries—Tanzania, Albania and Paraguay—have threshold
programs that have been approved by MCC. The plans for these three countries are
expected to be signed in the near future.

In fiscal year 2005, MCC received an appropriation of $1.488 billion to administer the
MCA assistance and an additional $1.75 billion for fiscal year 2006. The President is
requesting an additional $3 billion for fiscal year 2007 to administer the program. With
five compacts signed and three approved, MCC has committed over $1.5 billion for its
eligible country program and nearly $100 million for its threshold program.

REVIEW OBJECTIVES
This review was a follow up of our February 2005 review, which we reported on in
Report No. M-000-05-001-S dated March 31, 2005.2 As in the previous review, we
directed our objectives to assess and report on the current status of the MCC in terms of
achieving its planned organizational structure, developing its compact development
process, and complying with the Millennium Challenge Act of 2003 and other applicable
Federal laws and regulations.

Appendix I contains a discussion on the review’s scope and methodology.

1
 After our fieldwork ended, MCC signed a compact agreement with these three countries.
2
  Review of the Millennium Challenge Corporation’s Progress in Achieving Its Planned
Organizational Structure and Beginning Its Assistance Programs As of February 28, 2005, Report
No. M-000-05-001-S, dated March 31, 2005.


                                                                                            1
REVIEW FINDINGS

What progress has the Millennium Challenge Corporation made
in achieving its planned organizational structure?
The Millennium Challenge Corporation (MCC) continues to make strides in achieving its
planned organizational structure. Since our last review:

   •	 A new Chief Executive Officer (CEO) was appointed to lead the organization.

   •	 MCC restructured its departments to streamline processes and to gain better
      efficiency.

   •	 MCC continued to implement internal practices by developing and revising
      policies and procedures that affect the organization’s operations.

   •	 MCC increased its staffing level to accommodate the anticipated increased
      workload of working with 23 eligible countries.

In spite of these significant changes, there are a few areas that MCC should strengthen
to increase the efficiency of its operations. The recommended improvements include (a)
developing an agency-specific security clearance policy to ensure that prospective
employees are properly cleared for employment, (b) identifying an integrated human
resource management system to maintain and track its personnel data, and (c) following
internal guidelines in the procurement area. The affected areas are discussed in the
Conclusions and Recommendations section on pages 13 to 20 of this report.

MCC’s new CEO was confirmed by the U.S. Senate in October 2005 and assumed his
duties at MCC a month later. The new CEO brings a new vision to MCC and plans to
improve its services by having fewer compacts while providing greater financial
assistance to the countries with which it signs a compact. Additionally, to streamline
processes and gain better efficiency in the compact development process, MCC’s new
CEO restructured the organization by creating, dissolving, or restructuring internal
departments. For example, MCC combined its former Country Programs department
with particular units (such as the infrastructure, agriculture, financial and private sector
units) of the Markets and Sector Assessments group and renamed it the Department of
Operations. Furthermore, in anticipation of the increased workload necessary to
process the additional eligible countries, MCC sought and obtained approval from the
Office of Management and Budget to increase its staffing level from 200 to 300
employees. MCC’s actual goal is to hire 280 employees and reserve the remaining 20
positions for future staffing needs.

As of December 2005, MCC had 160 employees, achieving 57 percent of its planned
staffing level of 280 employees. In addition to MCC’s 160 employees, MCC also
employed 7 detailees from other federal agencies, and 24 contracted personnel. By
hiring 20 employees a month, MCC plans to reach its staffing goal of 280 employees by
July 2006. The table below shows MCC’s staffing level by department, as of December




                                                                                          2
2005, as well as, each department’s staffing target and the remaining employees it
needs to recruit to reach its target.

                                       Table 1: 

                       MCC’s Current and Projected Staffing Levels 


MCC Departments                                          Staffing as      Staffing      Remaining
                                                              of         Target by       Staff to
                                                         December        July 2006       Recruit
                                                            2005
Accountability                                                    27              63              36
Administration and Finance                                        23              41              18
Office of the CEO                                                  5               6               1
Congressional and Public Affairs                                   8              12               4
General Counsel                                                   12              17               5
Operations                                                        76             128              52
Policy and International Relations                                 9              13               4
MCC’s Actual Goal by July 2006                                   160             280             120
Reserve Positions for Future Allocation                                           20
MCC’s Project Full Staffing Level                                                300

MCC continues to use the special hiring authority approved by the Office of Personnel
Management (OPM) to reach its targeted staffing level. The hiring authority provides
flexibility to MCC by granting MCC a Schedule A authority, which allows it to appoint
employees to work for the agency without the competitive service requirement.3 OPM
granted MCC a one-year extension to use this authority until March 2006, after which
MCC is expected to develop its own competitive procedures to fill needed positions.
Although MCC is in the process of developing its own competitive procedures, it still
plans to request another one-year extension to facilitate meeting its staffing target of 280
by July 2006.

Additionally, MCC plans to establish an in-country presence in each compact country
overseas to provide oversight, track implementation and provide guidance to the
country. Each office will consist of a resident country director, a deputy resident country
director and support staff. These employees will be either U.S. direct hires or local
employed staff (LES).4 At the time of our review, MCC has hired these resident country
directors for the five countries with which it has signed a compact agreement (Georgia,
Cape Verde, Madagascar, Nicaragua, and Honduras) and continues to recruit for this
position for the countries that are expected to sign a compact in fiscal year 2006. In
addition, MCC has filled all of its overseas positions for Cape Verde and Honduras and
continues to recruit for its unfilled positions in the countries of Madagascar, Georgia and
Nicaragua.




3
  This means that MCC has its own hiring system, which establishes the evaluation criteria it uses
to fill internal vacancies. In addition, it does not require its employees to compete for the position
by taking a written examination, such as the Knowledge, Skills and Ability essay.
4
  MCC does not count LES employees in its staffing level because it does not actively recruit
those employees; it contracts with the State Department to recruit local staff.


                                                                                                    3
To supplement its organizational structure and assist in carrying out its mission, MCC
has several formalized interagency agreements (IAAs) with other Federal government
agencies. Since our last review, MCC has increased the number of federal government
agencies with which it has IAAs from three to seven. For example, MCC has IAAs with
the Department of Interior’s National Business Center (NBC), the U.S. Department of
Agriculture (USDA), and the U.S. Army Corps of Engineers to provide a variety of
services to MCC. NBC currently has six IAAs with MCC and provides services such as
procurement, accounting, and human resources. MCC’s second largest IAA is with
USDA, which provides MCC detailees with agricultural knowledge and expertise as well
as other general agricultural services. In addition, MCC has three IAAs with the US
Army Corps of Engineers, which provides expertise in environmental, engineering and
other related services.

MCC also implemented a new employee orientation seminar, held on a monthly basis for
its new employees and contractors—most of whom do not have previous Federal
government experience—to introduce them to Federal government guidelines. The
seminar consists of two sessions: the first session introduces employees to MCC
protocols and addresses pertinent administrative issues; the second provides the
employees a brief overview of the MCC policies and procedures. In addition to the
course, MCC provides all new employees with a new employee handbook, which will be
available online in the near future, as supplemental information.

MCC also continues to develop and update its policies and procedures for specific areas
of its operations and has placed them on its intranet for easy access and distribution to
its employees. At the time of our review, MCC had developed approximately 38 policies
and procedures that address various issues such as administrative, contracting and
compact development guidelines. Furthermore, because MCC is a government
corporation, it is exempt from U.S. Code, Title 5 Chapter 43. This exemption allows
MCC to develop its own performance plan without the review or approval from a
performance review board or the Office of Personnel Management.5 In December 2005,
MCC finalized and implemented its performance plan. The performance plan addresses
pay and performance incentives such as the cost-of-living adjustment and performance-
based salary increases, bonuses, and other incentives.


What is the status of the Millennium Challenge Corporation’s
compact development process?
The Millennium Challenge Corporation continues to make progress in developing compacts
with its eligible countries. There are now 23 countries eligible for Millennium Challenge
Account assistance and 18 countries eligible to participate in the threshold program. (See
Appendix III and IV for the status of each country in the two programs.) At the time of our
review, MCC had signed compact agreements with five of the eligible countries:
Madagascar, Cape Verde, Honduras, Nicaragua and Georgia. In addition to these five
countries, MCC’s Board of Directors had approved compacts with Armenia, Vanuatu, and
Benin.6 These compact agreements are expected to be signed in the immediate future.

5
   U.S.Code, Title 5-Government Organization and Employees, Chapter 43, Performance
Appraisal.
6
  After our fieldwork ended, MCC signed a compact agreement with these three countries.


                                                                                         4
In addition, MCC has approved threshold country agreements with Burkina Faso and
Malawi.7 MCC expects to enter into more compact and threshold agreements with the
remaining countries by the end of next year. At the time of our review, three of the five
compact countries had received funding to begin implementing the compact’s activities.
However, as MCC moves forward in signing more compact agreements with eligible
countries, it needs to ensure that it has developed adequate policies to cover areas such
as pre-compact assistance and management of its threshold program. These areas are
discussed in the Conclusions and Recommendations section on pages 13 to 20 of this
report.

To ensure the successful completion of future compact agreements in a timely manner,
MCC has made a number of significant changes to its compact development process.
MCC’s compact development process is composed of four distinct and separate phases:
(1) proposal development, (2) due diligence, (3) compact negotiation and (4)
implementation.

                                        Table 2: 

                                Phases of MCC’s Compact 

                                  Development Process 


              Proposal           Due               Compact            Implementation
              Development        Diligence         Negotiation




While the phases of the compact development process have not changed, MCC has
made changes, based on lessons learned, within the phases in an effort to refine the
process, streamline the procedures and gain better efficiency. Those changes involve (1)
providing guidelines to the eligible country during MCC’s initial visit, (2) establishing target
actions and dates in order to prioritize resources, (3) updating internal policies and
procedures to ensure consistent application country-by-country, and (4) providing pre-
compact assistance to speed up implementation.

Proposal Development

Once a country is selected as eligible for MCA assistance, MCC invites the country to
submit a proposal describing the projects and activities the country wishes to implement
using MCA funding. Initially, MCC posted a document to its website to assist the countries
in developing proposals. However, it became apparent to MCC that the countries needed
more detailed guidance than was initially provided to aid them in developing a successful
proposal. Therefore, in the latter part of 2005, MCC developed a comprehensive
guidebook, which includes vital information on MCC itself, the compact development
process and detailed procedures for developing a proposal. The guidebook provides,
among other things, information on the compact assessment and approval process,
guidance on the consultative process; and describes the framework, guidelines and
elements of fiscal accountability. This guidebook is provided to the country during MCC’s
initial visit. According to MCC officials, there are noticeable benefits from providing

7
 After our fieldwork ended, MCC’s Board of Directors had approved threshold programs for three
additional countries: Tanzania, Paraguay and Albania.


                                                                                              5
countries with the guidebook and as a result expect countries to move along faster in the
compact development process.

In MCC’s philosophy of eliminating extreme poverty in eligible countries, country ownership
is probably the most prominent principle.8 To ensure that the eligible country is committed
to this principle and to the overall program, MCC, based on lessons learned, identified
certain actions and proposed target dates that a country must achieve before MCC
expends additional resources to assist the country in advancing to the next phase of the
compact development process. Those actions are:

        •	 selecting a senior point of contact to facilitate communication with MCC
           and to coordinate the country’s overall MCC activities (target date:
           30 calendar days),
        •	 developing a core country team that is responsible for the development
           of the country proposal (target date: 90 calendar days), and
        •	 submitting a proposal to MCC that meets MCC’s criteria (target date:
           6 months).9

Countries that meet or beat the target dates for these actions will be given higher priority by
MCC as it allocates resources for items such as scheduling travel to a country for
preliminary discussions and advancement to the due diligence phase of the process. For
example, an eligible country that submits a sound proposal by the target date will be given
first priority status and be advanced to the due diligence phase. Countries that do not meet
or beat the actions and target dates will have to wait until resources are available. In other
words, if a country misses the target date of 6 months for proposal submission, that country
will be given a third priority status. Prior to this change, MCC had not imposed any
deadlines or target dates on countries to submit proposals; as such there was no real
incentive for a country to submit its proposal in a timely manner. By imposing such actions
and target dates, MCC will be able to make more efficient use of its resources and identify
the eligible countries that are serious about the MCC program and receiving MCA
funding.10

Due Diligence

MCC has invested extensive time and resources in developing its second phase of the
compact development process, due diligence—the appraisal process through which
MCC determines whether the proposal meets MCC criteria for funding. The due
diligence process assesses all aspects of the proposal and evaluates the country’s
capacity to execute the program, looking at factors such as the country’s procurement
systems, fiscal accountability processes, management resources, and monitoring and
evaluation capacities. If the results of the due diligence process is favorable, the MCC
due diligence team recommends that MCC advance to the compact negotiation phase
with the country.


8
   Country ownership refers to the country taking ownership of the entire process, from developing
the proposal to implementing the compact’s activities and monitoring its performance.
9
  All target dates are from the date of MCC’s initial visit to the eligible country.
10
   According to MCC officials, the guidelines only apply to the countries that were selected in
fiscal year 2006 and ones that will be subsequently selected. The countries selected prior to
fiscal year 2006 will not be subject to these new target dates.


                                                                                                6
To ensure consistent application (although there will be slight variations), MCC revised
its due diligence checklist in the latter part of 2005. The revised checklist contains
standard questions that will generally apply to all proposals with respect to a given
subject area. Prior to this change, each team member produced a list of questions and
issues that the country needed to address depending on the team member’s area of
expertise as part of the due diligence process. These questions and issues were placed
on a software collaboration tool and constituted the team’s global “due diligence
checklist.” Implementing a standard checklist gives MCC some assurance that the
countries’ proposals and capacities will be evaluated in a consistent manner.

MCC also revised a number of other internal policies and procedures relating to its due
diligence process to streamline documents and eliminate bottlenecks that have impeded
the progression of the compact development process. For example, to move to the
implementation phase faster, MCC revised its delegations of authority (which identifies
who has authority to sign certain documents related to the compacts) and developed a
policy to resolve key implementation structures and details earlier in the compact
development process (prior to compact negotiations).

In addition, MCC increased its staffing level to accommodate the anticipated workload
necessary for working with 23 eligible countries. It also restructured its departments
directly involved in the compact development process so that significant decisions could
be made in a timely manner and appropriate guidance could be provided to countries
seeking assistance with the compact development process.

MCC made another significant change to its due diligence process to address its lack of
available technical skills needed to effectively carry out parts of the due diligence
process. Specifically, MCC increased the number of interagency agreements with other
Federal agencies and is looking to establish more contracts with outside firms in an
effort to build an adequate pool of resources for the critical technical skills needed in
assess certain aspects of proposed projects in the eligible countries.

Compact Negotiation and Implementation

MCC believes that the changes it has made on the front-end of the compact
development process will assist eligible countries in advancing to the compact
negotiation phase faster. After the terms of the compact are negotiated and agreed to,
the compact agreement is signed by MCC and the eligible country. Next comes the
implementation phase, the phase in which countries receive the first disbursement of the
compact award funding to begin implementing the compact’s activities. At the time of
our review, three countries had reached the implementation phase. Before a country
can advance to this phase, there are conditions known as “conditions precedent” that
must be met by MCC and the eligible country before a compact agreement goes into
effect (referred to as “entry-into-force”,11) and before the country receives its first and
subsequent disbursements. For example, before a compact reaches entry-into-force,
MCC and the eligible country must first execute a disbursement agreement and a
procurement agreement and certify that all domestic requirements for the compact to be
fully enforceable have been met. In order for a country to receive its first disbursement,
conditions precedent—such as establishing a bank agreement, entering into a fiscal

11
   According to MCC officials, entry-into-force is the point when a binding commitment is
recognized and the compact funds are obligated.


                                                                                         7
agent agreement and developing a financial plan—must be met prior to disbursement of
initial funds.

In working with the five compact countries, MCC learned that the time between compact
signing and entry-into-force took much longer than anticipated due to various reasons,
such as the lack of expertise and resources needed to develop such agreements and
the country’s ability to pay such services. The chart below illustrates the time span
between compact signing, entry-into-force, and first disbursement for the five current
compact countries.


                                                       Table 3:
                                  Timespan from Compact Signing to Entry-into-Force(EIF)

                        24
                        22
                        20                               3
                                              3
     Number of Months




                        18
                        16
                        14
                                                                                        EIF
                        12       3
                                                                                        Compact signing
                        10                               19           19        20
                         8                  17
                         6      11
                         4
                         2
                         0
                             Madagascar   Honduras   Cape Verde   Nicaragua   Georgia
                                                  Compact Countries

The number of months depicted in the chart begins from the date of eligibility to illustrate the
number of months it took a country to sign the compact and reach entry-into-force.

As shown in the chart above, Madagascar signed a compact with MCC 11 months after
being selected as an eligible country. Three months after that, the compact reached
entry-into-force. Similarly, Cape Verde’s compact was signed 17 months after selection
and reached entry-into-force 3 months later. These countries, along with Honduras,
averaged about 3 months to advance from compact signing to entry-into-force and first
disbursement. The other two countries have not reached entry-into-force or received
their first disbursement for the following reasons: a ratification issue in Nicaragua and a
lack of available funding to pay its core technical team in Georgia.

MCC wants to shorten the time span between compact signing, entry-into-force and first
disbursement to enable the countries to start implementing the compact activities and
become operational faster. One way MCC believes that this can be accomplished is by
providing funding to the eligible country at compact signing. These funds will be
distributed using the Section 609(g) mechanism12 and will reduce the amount of the

12
   Section 609(g) of the MCA Act of 2003 gives the Chief Executive Officer the authority to enter
into contracts or make grants for any eligible country for the purpose of facilitating the
development and implementation of the Compact between the U.S. and the country.


                                                                                                          8
compact awarded to the eligible country. For instance, at compact signing a percentage
of funds will be provided to the eligible country to assist the country in developing
supplemental agreements required for entry-into-force and first disbursement and to
cover administrative expenses such as salaries, rent, and legal support payments. MCC
believes that providing such funding will accelerate the time between compact signing
and entry-into-force so that the compact funds could be made available to the country
sooner. However, MCC needs to develop a guidance policy before it moves into full
implementation of this concept.        This is discussed in the Conclusions and
Recommendations section on page 15 of this report.

Threshold Program

In addition to the progress MCC is making in developing and negotiating compacts with
eligible countries, MCC has moved forward in establishing its threshold program. The
threshold program assists selected countries that are committed to undertaking
necessary reforms to improve their performance on the eligibility criteria so that they
might eventually qualify for assistance as an eligible country. The U.S. Agency for
International Development (USAID) manages the threshold country program with MCC’s
oversight. Currently, there are 18 countries eligible to participate in this program. At the
time of our review, MCC has signed threshold country plans13 with Burkina Faso and
Malawi and has approved threshold programs for three additional countries. To date,
under its threshold program, MCC has committed nearly $100 million to help countries
improve their policy environment, fight corruption, improve girls' primary education and
strengthen the country’s rule of law. The Millennium Challenge Act provides that up to
10 percent of available funding can be used for this program.

The process that MCC and the threshold countries follow to develop a threshold plan is
similar to the compact development process. First, the country has to express interest
by submitting a concept paper. The concept paper can focus on any of the 16 MCA
indicators.14 According to MCC officials, MCC has not restricted the concept paper to
focusing only on the indicators that the country did not pass, but has left it open so that
countries may focus on any of the 16 indicators to improve their overall performance.
Most of the threshold countries fail on the corruption indicator and it is also the one
indicator focused on by most countries. The concept paper undergoes a number of
reviews by the USAID/Mission in country, USAID/Washington and MCC. USAID
consolidates the comments from all parties and sends the comments and concept paper
to MCC, which then holds an investment committee meeting to determine whether the
concept paper has sufficient merit to justify MCC’s support. If approved, MCC sends a
congressional notification to the U.S. Congress, and the threshold plan is sent to MCC’s
board for approval. Once the board approves the plan, a grant agreement is signed with
the country in order to start implementing the threshold program’s activities.




13
   A threshold plan includes a performance schedule, benchmarks to measure progress, a
financial management mechanism, and a budget. The duration of a threshold plan is usually up
to 2 years.
14
   To determine a country’s eligibility for MCA funding, MCC developed sixteen objective and
quantifiable indicators to evaluate a country's demonstrated commitment to ruling justly,
promoting economic freedom and investing in its people.



                                                                                          9
MCC is also working to streamline the threshold program process. First, MCC plans to
provide all countries with diagnostic data for informational purposes, so that the country
knows exactly where each indicator failed in meeting eligibility requirements in order to
more accurately focus on needed policy reforms. In addition, as in the compact
development process, MCC is imposing deadlines for the submission of the country’s
concept paper. For 2004 and 2005, the due date for the country’s concept paper was
4 months from selection. For 2006, MCC reduced the timeframe to 3 months from
selection to try to move the process along faster. However, there are some additional
improvements that MCC should make to increase the efficiency of this program. These
improvements are discussed in the Conclusions and Recommendations section on
pages 16 and 20 of this report.


What progress has the Millennium Challenge Corporation made in
complying with the Millennium Challenge Act of 2003 and other
applicable Federal laws and regulations?
Since OIG’s last review, MCC has continued to make progress in complying with the
Millennium Challenge Act of 2003 (Act) and continues to assess the applicability of other
Federal laws and regulations to its operations.

Act Authorities and Requirements

The MCA Act of 2003 has a number of authorities and requirements, as well as other
provisions and requirements on reporting and coordinating with government entities, that
guide the MCC on how to organize itself, identify countries that are candidates for
assistance, select countries eligible to submit assistance proposals, administer
assistance to the countries, and enter into agreements with the countries.

MCC has continued to comply with the several provisions of the Act. For example,
pursuant to the Act, MCC has:


   •	 Provided guidance for developing solicited proposals on the MCC website for
       countries to guide them in developing a proposal. However, MCC has not
       provided guidance for unsolicited proposals because it has not, and does not
       expect to receive such requests.

   •	 Notified Congress and the public, according to the required time limits, regarding
       the MCC’s Board’s selection of eligible and candidate countries, the criteria and
       methodology used to select eligible countries, and the date on which MCC enters
       into compact negotiations with an eligible country.

   •	 Consulted with USAID officials, especially those who are responsible for a region
       or country where the MCC eligible country is located.

   •	 Notified Congress when Yemen was suspended from the threshold country
       program, even though this was not required by the Act. According to the Act,
       MCC is required to inform Congress when it suspends or terminates an eligible


                                                                                       10
        country; however, MCC has made it a policy to notify Congress when a country is
        terminated or suspended from receiving any type of assistance—compact
        development and implementation or threshold program—under the MCC
        development funding umbrella.

          The Act also requires that the MCC Board of Directors’ membership include four
  individuals with relevant international experience. At the present time, the Board lacks
         two such members. According to MCC officials, the Hill has forwarded names of
     proposed candidates for the two open seats on the Board to the White House, which
   approves and appoints the board members. In MCC’s opinion, the two open seats on
        the Board have not impeded the work of MCC. However, in order to maintain the
 continuity and stability of the board, it would benefit the Board as well as MCC if the two
   remaining seats were filled as soon as practicable. The four individuals are appointed
                    for a term of 3 years and can be reappointed for an additional 2 years.


Other Federal Laws and Regulations

MCC continues to assess the applicability of other federal laws and regulations to its
operations. Because MCC was established as a government corporation15, it is subject
to any Federal statute that covers government corporations, as well, as any act that
defines government corporations in its definition of agency, government instrumentality
or government entity. MCC officials maintain, as a general matter, that MCC is subject
to any Federal statute that covers government corporations and acts that include
government corporations in its definition. However, according to MCC officials, when an
act generally covers a government corporation, some provisions may not apply to MCC
by virtue of overriding provisions of the Millennium Challenge Act, e.g., Section 605(a)
on “notwithstanding” authority, Section 617(c) on hiring and compensation authority.

MCC identified selected Federal Laws and Regulations that it determined cover, partially
cover, or do not cover MCC. For example, MCC identified the Anti-Deficiency Act,
Prompt Payment Act, Federal Travel Regulations and Federal Acquisition Regulation as
laws and regulations that cover MCC’s operations. Conversely, MCC identified the Chief
Financial Officer’s Act (CFO) of 1990, the Federal Financial Management Improvement
Act (FFMIA) of 1996 and the Office of Management and Budget’s Form and Content of
Agency Financial Statements as laws and regulations that do not cover its operations.
MCC officials believe that these statues do not apply to MCC because MCC is not a
CFO Agency. Nevertheless, MCC plans to implement policies and procedures to follow
certain laws and regulations, such as the CFO Act and FFMIA because it makes good
business sense. Additionally, MCC identified a few laws and regulations such as the
Government Management Reform Act of 1994 and the Civil Service Reform Act of 1978,
that it believes partially cover MCC’s operations.

In accordance with the Equal Employment Opportunity Commission’s regulations, MCC
is also implementing an Equal Employment Office (EEO) program. This program is
intended to provide equal employment opportunities to all MCC employees and
applicants. MCC plans to enter into a Memorandum of Understanding with the

15
   Section 105, Title 5 of the United States Code includes government corporations in its definition
of an executive agency.



                                                                                                 11
Executive Office of the President to administer this program. According to MCC officials,
the Executive Office will be responsible for training MCC’s supervisors and staff and
managing the EEO compliant system.

Since the OIG’s last review, MCC has developed, in accordance with the Government
Performance and Results Act, its first 5-year strategic plan, which describes its mission,
strategic goals and principles. The strategic plan is intended to give MCC staff a
consistent guide for its operations and establish accountability for MCC as an
organization.




                                                                                       12
Conclusions and
Recommendations
While MCC has advanced in its second year of operations in establishing its planned
organizational structure, improving its compact development process, and complying
with its authorizing legislation, there are some areas that MCC should improve upon as it
continues to implement its development assistance program. Those areas are:

       •	 implementing policies to effectively carry out its operations in the
          areas of security clearances, Section 609(g) bridge funding, and
          country selection for MCC programs,
       •	 developing an integrated human resource system,
       •	 disseminating     contracting  officer’s  technical   representative
          designation letters, and
       •	 defining the reporting requirements for proper oversight of the
          threshold program.

MCC Needs to Develop a Security
Clearance Policy

MCC has not developed an agency-specific security clearance policy that clearly
delineates and identifies the type of security clearance each MCC employee must
receive to work with the organization. According to MCC officials, MCC did not have
adequate resources to develop its own security-related policy due to the limited number
of staff at the start of its operations. In place of it own security policy, MCC followed U.S.
Department of State’s Foreign Affairs Manual, Volume 12, Personnel Security (12 FAM
230) as an interim reference guide and several other Federal guidelines to make security
related determinations. However, without a clearly defined written, agency-specific
policy regarding security clearances, the security risks posed to the organization and the
Federal Government by an employee hired by MCC will not be adequately and
consistently addressed and mitigated.

According to MCC officials, MCC was established with a foreign policy/national interest
mandate to quickly begin providing development assistance to foreign countries. To
achieve this mandate, MCC found it necessary to promptly increase its staffing level
before it developed internal security policies and to hire staff without the lengthy process
of a security clearance, which would delay the start date of its employees. Additionally,
the MCC included in its employment processing a waiver that allowed it to hire without a
pre-employment background investigation. As a result, MCC employees can start work
on a condition that clearance will be granted once the investigation is complete.
However, if an employee is denied clearance, MCC will have to terminate his or her
employment. MCC reported one occurrence where a decision was made that the
employee would unlikely be granted a clearance. According to an MCC official, the
employee was informed—after the employee began work at MCC—that based on the
information provided on the security forms, it was unlikely that a security clearance
would be granted. As a result, the employee then decided to resign from the
corporation. Long-standing foreign affairs agencies such as the U.S. State Department


                                                                                           13
and USAID have established a security policy where they do not allow employees to
start work until the agency has completed a background investigation and provided a
provisional clearance for the employee.

Although MCC has not developed its own written security policy to determine the type of
clearance employees should have in various positions, according to MCC officials, most
of the employees who are directors, managers, and other professional staff who travel
frequently receive a top secret clearance, while the administrative staff—professional,
technical, and clerical—receive a secret security clearance. To make security related
determinations, MCC used (1) the Adjudicative Guidelines, which permits the agency to
determine reasons an employee should not have access to classified information, and
(2) Suitability Factors of 5 Code of Federal Regulations 731.202, which determine if the
employee’s actions, such as providing false statements or criminal conduct, prevents the
employee from having access to classified information.

The Suitability Factors also grants an agency a waiver to hire an employee for a specific
timeframe, if necessary for the national interest. In addition, to determine if a specific
employee should receive clearance based on the type of classified information needed,
MCC uses Executive Order 12968, Access to Classified Information. This order also
explains that the agency could grant temporary clearance to employees contingent on
the completion of a full clearance. Furthermore, Executive Order 10450, also used by
MCC, permits agencies to hire staff to fill sensitive positions when deemed necessary for
national interest.

According to MCC officials, they are working on developing agency-specific security
policies but maintain that they need to continue to postpone performing full employment
investigations in order to meet MCC’s staffing goals and ensure that the foreign
policy/national interest directive promoted by the President is a success. However,
without a documented agency-security clearance policy, MCC may grant clearance to an
individual that is not deemed trustworthy for employment in a national security position.
In addition, an employee working without a security clearance could be a potential threat
to the organization by having access to the organization’s systems and could acquire
confidential information that may impede or assist a country receiving assistance from
MCC. Moreover, an MCC policy on this issue would ensure that consistent application is
being applied in granting clearances. As MCC continues to move forward, it needs to
ensure that the appropriate clearance is given to its employees.


       Recommendation 1: We recommend that the Millennium Challenge
       Corporation develop and implement security-related policies and
       procedures that (1) specifically identify the level of clearance that each
       job position requires and (2) require, at a minimum, a preliminary
       background investigation be conducted prior to any Millennium Challenge
       Corporation employee starting work.




                                                                                       14
MCC Needs to Modify
Its Section 609(g) Policy

MCC had not modified its Section 609(g) policy to address compact support funding
referred to as Section 609(g) bridge-funding. Bridge-funding, a concept developed by
MCC, is intended to decrease the time between compact signing and entry-into-force in
an effort to implement the compact’s activities faster. MCC did not address this concept
in its current 609(g) policy because the need for such funding was not previously
anticipated. Although providing such funding is not prohibited by MCC’s authorizing
legislation (the MCA Act), MCC needs to ensure that the concept, methodology and
application is fully outlined, documented and shared with eligible countries to ensure full
understanding and consistent application. Without a clearly defined policy to address
this concept, there is a possibility that MCC’s staff may not fully understand MCC’s
position regarding the acceptable use of 609(g) funds which may adversely impact the
implementation of the compact’s program.

Section 609(g) of the Millennium Challenge Act of 2003 gives MCC the authority to
provide assistance to countries to develop and implement its compact. Specifically,
according to the Act, the Chief Executive Officer may enter into contracts or make grants
for any eligible country to facilitate the development and implementation of the compact.

In developing the 609(g) bridge-funding concept, MCC was attempting to address a
critical issue of accelerating the country’s ability to move to the implementation phase
more quickly once a compact is signed. The compact stipulates that certain conditions
must be met before a compact is entered-into-force and the country receives is first
disbursement of compact program funds.16 Based on the performance of previous
countries, it became apparent to MCC that, in part, due to limited financial resources
many countries were very slow in meeting those conditions. For instance, it took
Madagascar approximately 3 months after its compact was signed until the compact was
entered-into-force and could move to actual implementation. Similarly, Georgia, which
signed its compact on September 12, 2005, had yet to reach entry-into-force 4 months
later (as the end of our fieldwork). As a result, Georgia has not received its first
disbursement of the $295.3 million compact funding it was awarded. According to MCC
officials, Georgia’s compact has not entered-into-force because of the country’s limited
financial resources available to pay certain administrative expenses, such as the salaries
of Georgia’s technical team working on the MCC program and other operational
expenses. Without such funding, Georgia is unable to meet the conditions stipulated in
the compact for entry-into-force and first disbursement in a timely manner. This situation
was not limited to Georgia as other countries that signed a compact with MCC faced a
similar dilemma. The countries could not pay administrative and other start-up expenses
due to the lack of available funding. As a result, the countries’ core-teams would
sometimes work months without compensation. Furthermore, at the time of this review,
the first disbursement given in most countries has primarily been for administrative
expenses and very little has been expended for program–related expenses. Bridge-
funding is intended to assist countries in meeting disbursement conditions more quickly
and to pay for certain administrative and start-up expenses prior to the flow of compact
program assistance.

16
  These conditions are met by implementing supplemental agreements covering disbursements,
procurements, banking, governance and fiscal agent and provide assurance that the country has
developed proper structures to protect and maintain the integrity of MCC funds and programs.


                                                                                          15
Because MCC did not anticipate a country would need assistance for program
administrative and miscellaneous start-up expenses, this concept was not addressed in
its current 609(g) policy, dated October 2005. Unlike previous 609(g) funds awarded by
MCC17, bridge-funding 609(g) would be made available at compact signing and reduce
the amount of the compact awarded to the eligible country. While MCC is working on
updating its current policy to address this issue, it has already provided (with the CEO
and Investment Committee’s approval) such funding to eligible countries and is planning
to continue to provide such funding in the immediate future.

While MCC has a policy on Section 609(g) funding, it needs to be modified and updated
to include the bridge-funding concept. Updating the current policy will ensure that the
concept, methodology and application of this type of funding is fully defined in a written
policy. The policy should also be widely disseminated to eligible countries to ensure that
the countries have allocated the necessary funding in their compact requests to cover
such expenses. An updated policy will also ensure that the MCC staff is fully aware of
MCC’s management policy on the use of bridge-funding as they are negotiating future
compacts.

      Recommendation 2:        We recommend that the Millennium Challenge
      Corporation update its Section 609(g) policy to include provisions to address
      the concept, requirements, limitations, methodology and application of
      Section 609(g) bridge-funding assistance to a country.


MCC Needs to Develop a Policy Addressing
Selection of Countries for Participation in Both
The Threshold and Eligible Programs

MCC had not developed a documented policy to address countries’ participation in both
the threshold and eligible country programs. This occurred because conditions did not
previously exist that would have required such a policy i.e. where the same countries
were participating in both programs (Threshold and Eligible country programs).
However, during the last round of country selections in November of 2005, MCC’s Board
of Directors selected three countries currently participating in the threshold country
program as being eligible to receive compact funding. Those countries had not
completed their threshold programs and, for the most part, did not have an approved
threshold plan in place. Although participation in the two programs is not prohibited by
MCC’s authorizing legislation, MCC needs to implement controls to mitigate the risk of
loss or misuse of MCC provided funds by defining exactly how the two programs will be
managed by the country, any perceived risks, and actions that will be taken to mitigate
those risks.

MCC’s Board of Directors determines if a candidate country is an eligible country based
on the country’s demonstrated commitment to meet 16 policy indicators in three broad
categories: ruling justly, promoting economic freedom and investing in its people. Once
selected, the eligible countries are invited to submit a proposal for Millennium Challenge
Assistance (MCA). The threshold program is designed to assist countries that are on
the “threshold,” meaning they did not pass all 16 indicators, but have demonstrated a

17
  Previous 609(g) funds have been given to assist the country in conducting feasibility studies,
obtaining baseline data and acquiring technical assistance.


                                                                                             16
significant commitment to improve their performance as measured by these indicators.
MCC’s Board of Directors also selects these threshold countries to participate in this
program. These countries are invited to submit a threshold country plan.

In November 2005, MCC’s Board of Directors named three threshold countries as
eligible countries (i.e., eligible for fiscal year 2006 MCA assistance). If successful in
completing the requirements for each program, these countries will be able to participate
in both the threshold and eligible countries programs. For example, Burkina Faso was
selected to participate in the threshold program in fiscal year 2005. Then, the country
was also selected as eligible for fiscal year 2006 MCA assistance. If Burkina Faso is
successful in completing a threshold plan18 and entering into a compact agreement with
MCC, it can benefit from receiving two sources of MCC’s funds. According to MCC
officials, both programs (threshold and eligible) will run concurrently in a country if the
country is successful in completing the requirements for both programs. MCC will
manage the country’s eligible country program and USAID will manage the country
threshold program.

Further, there is no stipulation or requirement that a threshold country must complete or
graduate from its threshold program before being selected as an eligible country or
receiving compact funds. However, MCC is considering taking a different approach and
implementing some targets that must be achieved before a threshold country can be
selected as an eligible country. One such approach is that if a threshold country is
selected as an eligible country, MCC may reconsider expending resources in developing
the threshold plan if the country is not far in developing the plan. At the same time, if a
country’s threshold plan is substantially complete, it may to allow the country to continue
developing the threshold plan.

MCC should also consider the difficulties that a country may encounter in meeting the
requirements to participate in both programs. Although USAID is responsible for
managing the threshold plan, the country is responsible for developing the threshold
plan. Some countries may lack the necessary resources or capacity to manage and
implement both programs. As it stands now, MCC’s eligible countries are experiencing
difficulty with compact development and implementation.

MCC officials stated that they are trying to ensure that there are training and capacity-
building components in the threshold plan to provide a training ground for developing
and implementing a compact. MCC recognizes that if a country does poorly with
developing and implementing the threshold plan, the same performance is likely with the
compact development and implementation. Equally, if a country performs well, its
overall performance of its indicators would likely improve, and the successful
implementation of a compact agreement may be more likely.

However, there is a risk that MCC may expend funds in a country to develop a threshold
plan that performs poorly or does not achieve the intended results of the program. MCC
would have to consider if it is reasonable to expend additional resources for that country
to develop a compact. To ensure consistent application in making such determinations,
MCC should develop a policy to guide itself when a threshold country has been selected
as an eligible country.


18
     Burkina Faso’s threshold plan was signed on July 22, 2005 for $12.9 million.


                                                                                        17
     Recommendation 3:       We recommend that the Millennium Challenge
     Corporation develop and implement a policy for making specific
     determinations concerning countries’ participation in both the eligible and
     threshold country programs.


MCC Needs to Develop an
Integrated Human Resource System

MCC does not have an integrated human resource management system to maintain and
track its personnel data. Instead, MCC uses several different tools or applications to
manage its personnel and recruitment data. The U.S. Department of Interior’s National
Business Center (NBC) provides human resource services to MCC. Therefore, MCC
must implement a system that communicates with the system that NBC uses.
Implementing an integrated system that interfaces with NBC’s system would ensure the
integrity of data and decrease the potential of losing data that may occur when using
hard copies or different software applications that do not communicate with each other.

Currently, the Human Resources (HR) office (an office within MCC’s Department of
Administration and Finance) uses hard copies, internal software packages, and its
contractors’ software to compile and track its data, which each HR unit maintains
differently. For example, the recruitment unit in HR relies on its contractor’s system to
track information on MCC’s recruited employees, whereas HR’s benefits unit relies on
hard copy documents and systems used by NBC to maintain employee records.
Moreover, other units of the HR office use internal software packages to track employee
profiles, such as pay bands and salaries. MCC would like to implement the Oracle HR
Suite to manage its personnel data internally. This suite could manage recruitment,
personnel files, payroll, and procurement, but it may be difficult to implement because
the system cannot interface with NBC’s system. According to the HR unit, NBC officials
explained that the Office of Management and Budget approves certain software that
Center of Excellence agencies, such as NBC, could use, but it did not permit the use of
the Oracle HR system. If MCC implements the Oracle HR system, it would prevent the
transmission of certain files to NBC and cause MCC to rely on the current method of
sending documents to NBC—via email or hard copy—which MCC wants to avoid.

Using an integrated system that could communicate with NBC would decrease the
amount of work or the potential loss of data that may occur when using hard copies or
different software applications and prove to be a more efficient use of resources.

     Recommendation 4: We recommend that the Millennium Challenge
     Corporation document its assessment of the automated options that could
     integrate all units of its human resources services plus interface with the
     U.S. Department of Interior’s National Business Center systems and develop
     short-range and long-range plans for implementation.




                                                                                      18
MCC Needs to Provide
COTR Designation Letters

MCC’s contracting officer did not adequately designate staff to manage contracts.
Specifically, MCC’s contracting officer did not provide Contracting Officer’s Technical
Representative (COTR) designation letters to staff responsible for managing contracts.
This occurred because MCC did not adhere to its contracting policy that addresses the
responsibilities of contracting officers. According to MCC’s Contracting Procedures,
MCC’s contracting officer should provide each COTR with a designation letter that
explains his responsibilities as they relate to the contract. Without a COTR designation
letter, COTRs may not be fully aware of their responsibilities in managing the contracts
and, as a result, may act outside of their authority (e.g., changing contract terms and
conditions), thereby creating a financial commitment on behalf of either themselves or
the U.S. Government.

MCC’s contracting procedures state that the contracting officer should provide each
COTR with a designation letter that explains his or her responsibilities as they relate to
the contract. Similarly, a copy of the letter should be maintained in the contract file and
given to the contractor. The COTR designation letter identifies the person responsible
for managing the contract and outlines the COTR’s responsibilities, such as maintaining
reports that document the contractor’s work, approving invoices, and completing
contractor performance evaluation. Although copies of the COTR letters were
maintained in MCC’s contract files, most COTRs did not receive a copy. We surveyed
approximately 10 percent of MCC’s trained COTRs to determine if MCC had followed its
contracting guidelines. Of the ten COTRs surveyed, only three had knowledge of the
COTR letter and were in possession of it. The remaining seven COTRs—each
responsible for managing between 2 to 15 contracts—had no knowledge of a COTR
letter and had not received it from the contracting officer. According to the acquisition
director, COTRs should receive a designation letter for each contract that they manage.

According to an MCC official, because MCC was a new agency, it needed people to
manage contracts in order for it to begin operating. At that time, most of the employees
were not trained as COTRs and were therefore titled as project monitors, with
responsibilities similar to a COTR’s, such as approving invoices. As a result, they did not
receive a COTR designation letter. However, after MCC began providing COTR training
in March 2005, the employees who attended and continued to manage contracts should
have received COTR designation letters for their current and future contracts. Contrary
to the MCC’s official’s comments, employees included in our survey who attended and
managed contracts did not receive a COTR designation letter. For example, three of the
ten COTRs surveyed who attended training in March 2005 and were designated to
manage contracts after completing the training did not have a COTR letter.
Furthermore, as stated above, seven of the ten COTRs that we survey and who
managed a number of contracts had never seen a COTR designation letter.

It is important that the roles and responsibilities of the contracting officer and the COTR
be clearly defined and understood by both parties. COTRs must be aware of the scope
and limitations of their authority. If COTRs continue to perform their duties without being
aware of their limitations, there is a greater possibility that they could act outside of their
scope and legally bind either themselves or the U.S. Government to an unfavorable
contract obligation.



                                                                                            19
      Recommendation 5: We recommend that the Millennium Challenge
      Corporation provide each contracting officer’s technical representative a
      designation letter for each contract that he or she manages.


MCC Needs to Develop
A Reporting Format for USAID

MCC had not defined the type of information that the U.S. Agency for International
Development should include in its progress reports on the threshold program nor the
frequency of the reports. The Memorandum of Agreement between USAID and MCC
requires USAID to submit quarterly reports on the financial expenditures but is silent on
periodic reporting of the performance or progress of the program. According to MCC
officials, quarterly reports are required from USAID, but the type of information that each
report should contain has not been clearly defined because they are not at the point
where the reports are due and, thus, have not worked out the details of the report. It is
important that MCC be periodically informed of the progress of the threshold program in
each country to maintain proper oversight. Without clearly defining the frequency and
contents of progress reports, information reported to MCC may not be useful, relevant or
timely.

In accordance with the Millennium Challenge Act of 2003, USAID manages the
implementation of MCC’s threshold country program. In October 2004, MCC and USAID
formalized their understanding of managing the threshold program in a Memorandum of
Agreement (MOA). The MOA outlines the terms and conditions, principles and financial
reporting requirements. However, it does not specify the frequency of reporting of the
program’s progress that is required. MCC officials stated that quarterly reports are
required, but the type of information that the report must contain has not been defined
because they are not at a point where the reports are due.

Currently, there are 18 countries eligible to participate in the threshold program. Two of
those countries have completed successful threshold plans, and three are expected to
have threshold plans in place soon. With these two countries starting to implement the
program and three other countries set to implement programs in the immediate future, it
is essential that MCC define the type of information that USAID will be required to report
concerning the programs’ progress.


       Recommendation 6: We recommend that the Millennium Challenge
       Corporation formally define the frequency and contents of the progress
       reports for the threshold program required from the U.S. Agency for
       International Development and communicate these requirements to that
       Agency.




                                                                                        20
EVALUATION OF
MANAGEMENT COMMENTS
MCC provided written comments to our draft report that are included in their entirety as
Appendix II. Overall, MCC management concurred with all six recommendations
included in the report and is taking or planning to take actions to implement the
corrective action to address them.


In response to Recommendation No. 1, MCC stated that it had developed and
implemented a policy and procedures that identify the level of clearance and background
investigation required for each position within MCC. The memorandum was approved
on March 23, 2006. MCC also stated that it is in the process of writing a policy and
procedures for conducting preliminary background investigations and will complete
implementation of the policy by the end of calendar year 2006.


In response to Recommendation No. 2, MCC agreed that it should periodically update its
609(g) policy as the use of the funding evolves and stated that it has already been in the
process of reviewing and revising the policy to address bridge-funding concept and other
evolutions for the use of the 609(g) authority. MCC also stated while they could not
commit that a revised section 609(g) policy will fully address the “concept, requirements,
limitations, methodology and application” of the funding the revised policy will contain an
appropriate level of detail on the use of the funding and other purposes and will continue
to contain appropriate “catch all” language to provide MCC with the needed flexibility to
effectively carry out is mission. MCC expects to complete the revision of this policy by
May 31, 2006.


In response to Recommendation No. 3, MCC plans to review its policy on allowing
countries to participate in both the eligible and threshold country programs. Once the
review is completed, MCC plans to present options to the MCC Board for consideration
during the next selection cycle, which is usually held in the month of November.


In response to Recommendation No. 4, MCC plans to conduct a thorough needs
assessment, identify and conduct thorough evaluations of the viable options and select a
system for integrating its human resource services. MCC plans to develop a timetable
and project plan for completion of the tasks by June 30, 2006


In response to Recommendation No. 5, MCC plans to provide each existing contracting
officer’s technical representative a copy of their designation letter by May 31, 2006.


In response to Recommendation No. 6, MCC stated that they met with USAID on March
15, 2006 and agreed on a format for reporting on the threshold program that will be used
as a basis for future reporting.


                                                                                        21
Based on MCC’s comments and the correction actions planned, a management decision
has been reached on all six recommendations.




                                                                              22
                                                                             Appendix I



SCOPE AND METHODOLOGY

Scope

The Millennium Challenge Corporation’s Office of Inspector General conducted this review
to gain an understanding of the progress that MCC has made in establishing its
organizational structure, beginning its assistance program and assessing MCC’s
compliance with applicable laws and regulations. Our review was not an audit and
therefore was not designed to fully comply with generally accepted government auditing
standards. The review was conducted at MCC headquarters located in Washington, D.C.
from August 4 through September 16, 2005 and resumed again from December 2005 to
January 20, 2006.

Methodology
In planning and performing this review, we interviewed MCC management officials and
examined documentation relating to MCC’s organization, staffing, policies and
procedures, compact development process and relevant laws and regulations.
To determine the progress MCC has made in achieving its planned organizational
structure, we interviewed MCC officials to determine the current status of its
organizational structure in terms of where MCC is now where they expect to be when
fully staffed and operational, the anticipated staffing needs of each MCC department,
and its hiring plans. We also reviewed documentation such as organizational charts,
staffing plans, and policies and procedures. In addition, we judgmentally selected and
surveyed approximately 10 percent of its contracting officer’s technical representatives
to assess MCC’s internal controls surrounding its procurement practices.

To determine the status of MCC’s compact development process, we interviewed key
MCC personnel involved with the compact development process and reviewed
applicable documentation related to the process. We also interviewed key MCC and
USAID personnel managing the threshold program. Furthermore, we reviewed:

        •policies and procedures governing MCC’s compact development process,
        •guidance given to the countries to assist in the compact development process,
        •compact development documents prepared by the five compact countries,
        •reports indicating the status of the compact development process, and
        •other file documentation pertaining to the compact development process.

To determine whether the MCC complied with the Millennium Challenge Act of 2003
(Act) and other applicable Federal laws and regulations, we met with and obtained
documentation from MCC staff as well as retrieved documents from MCC’s external
website. We discussed with the MCC staff their interpretation of parts of the Act and
whether the MCC complied with its terms. In reviewing compliance issues, we
determined the minimum level of action necessary to meet the requirements of selected
provisions of the Act and other Federal laws and regulations’ requirements but did not
attempt to fully evaluate the thoroughness, effectiveness or impact of the actions MCC
has taken.




                                                                                     23
                                                                              Appendix II



MANAGEMENT COMMENTS
              Millennium Challenge Corporation 

              Reducing Poverty Through Growth




                                                    April 28, 2006

MEMORANDUM TO: 	              John Phee
                              Assistant Inspector General for the Millennium
                              Challenge Corporation

FROM:            	            Mike Casella /s/
                              Deputy Vice President for Administration and Finance

SUBJECT:	                     MCC comments on the Review of the Millennium
                              Challenge Corporation’s Progress in Achieving its
                              Planned Organizational Structure and Beginning its
                              Assistance Programs

The Millennium Challenge Corporation appreciates the opportunity to comment on this
report. Attached please find our response to the six recommendations made in the report,
as well as clarifying comments on the body of the report.

Clarifying comments

     •	 Page 3 of the report refers to the MCC’s request for a one-year extension of its
        Schedule A excepted service appointing authority. On March 29, 2006, the
        Office of Personnel Management (OPM) granted this request and extended the
        MCC’s Schedule A excepted service appointing authority until March 31, 2007, to
        assist the MCC in reaching its approved staffing level. The MCC continues to
        develop and refine its own competitive hiring procedures that will be in place to
        fill positions after the Schedule A authority expires in March 2007.

•	        Page 4 correctly describes the MCC new employee orientation process as
     having two phases. However, phase one of the process is provided weekly for new
     employees and contractors on their first day of employment. During this phase,
     initial employee in-processing occurs and administrative policies and procedures and
     related Federal government guidelines are reviewed. New employees and
     contractors also receive hard copies of key policies and procedures and are directed
     to the Intranet for the full repository of MCC policies and procedures. The second
     phase of orientation is held monthly, as stated in the report. During this phase, the
     MCC mission, strategic objectives, organizational structure, departmental roles, and
     processes pertinent to carrying out the MCC mission, such as the selection process



                                                                                       24
                                                                              Appendix II


     for eligible and threshold countries and the compact development process, are
     reviewed.

•	      Page 4 of the report discusses the development of the MCC performance
     management program. It is correct that as a government corporation MCC can
     develop its own performance plan without the review or approval of the Office of
     Personnel Management. However, MCC did involve third parties in the
     development, review and endorsement of its performance management program.
     MCC consulted with a working group of the MCC Board of Directors, who provided
     considerable feedback throughout the entire development process. The MCC also
     engaged the Hay Group, an international consulting firm specializing in human
     resource management, for their expertise regarding best practices in performance
     management in both the public and private sectors. Finally, the MCC performance
     management program that was implemented for FY 2006 was endorsed by the MCC
     examiner at the Office of Management and Budget (OMB).

•	      Page 11 of the report discusses MCC implementation of an Equal Employment
     Opportunity (EEO) program. While the discussion of MCC’s efforts in this area is
     generally correct, MCC has not made a decision to enter into a memorandum of
     understanding with the Executive Office of the President to administer its EEO
     program. An initial agreement was executed with the Equal Employment Opportunity
     Commission on April 27, 2006, to provide on-site training regarding the federal sector
     EEO process and prevention of harassment (including sexual harassment). MCC is
     exploring a number of options for implementing its EEO program.

Recommendation 1: We recommend that the Millennium Challenge Corporation
develop and implement security-related policies and procedures that specifically
identify the level of clearance that each job position requires and that it require, at
a minimum, a preliminary background investigation be conducted prior to any
Millennium Challenge Corporation employee starting work.

MCC concurs with the recommendation. MCC has developed and implemented a policy
and procedures that identifies the level of clearance and background investigation
required for each position within MCC. The memorandum, National Security Positions
within MCC, was approved and March 23, 2006.

MCC is in the process of writing a policy and procedures for conducting a preliminary
background investigation prior to an employee starting work and will complete
implementation of this policy by the end of calendar year 2006. To accomplish this,
MCC has completed recent process changes to assist with full implementation of this
recommendation. A Memorandum of Agreement has been negotiated and implemented
with Department of State (DOS), Bureau of Diplomatic Security. DOS is currently
serving as our investigations supplier and is able to provide preliminary National Agency
Check (NAC) results prior to completion of the full field investigation. A Memorandum of
Agreement with the U.S. Office of Personnel Management has been negotiated and
implemented to electronically submit scanned fingerprint images for applicants in
completing FBI criminal history checks.

Recommendation 2: We recommend that the Millennium Challenge Corporation
update its Section 609(g) policy to include provisions to address the concept,



                                                                                        25
                                                                                 Appendix II


requirements, limitations, methodology and application of Section 609(g) bridge
funding assistance to a country.

MCC concurs that we should periodically update our 609(g) policy as the use of such
funding evolves. MCC has been in the process of reviewing and revising its section
609(g) policy to address bridge funding and other evolutions in the use of 609(g)
authority since it was originally issued, and expects to complete the revision process by
May 31, 2006.

We note, however, that the provision of bridge funding is well within the scope of our
current section 609(g) policy, which was in effect prior to the time we started using
bridge funding. The current policy provides “catch all” authority to the effect that “MCC
reserves the discretion to provide 609(g) funding even if one or more of the above
conditions is not met, subject to a case-by-case analysis and, in any event, consistent
with the statutory requirements on the use of such funding.” Section 609(g) is a broad
authority and its use will evolve over time to meet specific challenges that we and our
eligible countries encounter in developing and implementing compacts. Therefore, while
the statement that “MCC did not address this concept in its current 609(g) policy
because the need for such funding was not previously anticipated” (emphasis added) is
technically correct in that MCC did not anticipate this precise need when the policy was
drafted, we do not agree with any implication that MCC should be able to anticipate all
uses of its authorities in the abstract, or that we should refrain from using such “catch all”
authority where appropriate. MCC grants are a completely new approach to
development assistance, and the flexibility in section 609(g) was likely provided by
Congress precisely because MCC cannot anticipate all of these requirements in
advance.

For this same reason, while we believe that MCC should periodically update its 609(g)
policy to reflect evolutions in the use of such funding over time, MCC cannot commit at
this time that a revised section 609(g) policy will fully address the “concept,
requirements, limitations, methodology and application” of section 609(g) funding. We
do not want a new policy that is so detailed and restrictive that we in effect have to
modify it every time we provide section 609(g) bridge funding or experiment with other
new approaches to the use if this authority. Our revised policy will contain an
appropriate level of detail on the use of section 609(g) for bridge funding and other
purposes and will continue to contain appropriate “catch all” language to provide MCC
with the needed flexibility to effectively carry out its mission.

Recommendation 3: We recommend that the Millennium Challenge Corporation
develop and implement a policy for making specific determinations concerning
countries’ participation in both the eligible and threshold country programs.

MCC concurs with the recommendation. In November 2005, the MCC Board decided for
the first time to select three countries that were already threshold countries as eligible for
Compact funding under FY2006 assistance. MCC’s policy at the time allowed countries
to remain eligible to participate in both programs. However, the selection of these
countries to be in both programs did raise a number of issues for MCC’s consideration.
These include:

•	 Whether a country should be allowed to participate in the threshold program and be
   eligible for Compact funding simultaneously.


                                                                                           26
                                                                             Appendix II


•	 Whether to consider how far along a threshold program is in development prior to
   selecting a threshold country for eligibility status.

•	 Whether to require that certain benchmarks be achieved prior to allowing a threshold
   country to begin the Compact development process after it has been selected as
   eligible for Compact funding.

The Millennium Challenge Corporation agrees that it is important to address these
issues and develop a policy. Therefore, we have decided to review our policy and
present options to the MCC Board for their consideration during the next selection cycle.
A number of options exist, ranging from an exclusivity policy (a country may only
participate in one program at a time), to a conditionality policy (a country must
demonstrate a certain level of achievement in its threshold program before participating
in compact development), to the current policy of allowing both programs to run
concurrently. All factors will be considered during our review and development of a
policy.

Recommendation 4: We recommend that the Millennium Challenge Corporation
document its assessment of the automated options that could integrate all units
of its human resources services plus interface with the U.S. Department of
Interior’s National Business Center systems to develop short-range and long-
range plans for implementation.

MCC concurs with the recommendation. MCC recognizes the value of implementing an
integrated human resources (HR) system, as well as a human resources and payroll
system that is able to interface with NBC’s systems and/or the management systems of
other vendors. While MCC is committed to moving forward on this effort, this is a multi
year project given the significant investment in time and money required to effectively
identify and implement a solution that will best meet MCC’s needs.

As noted in the report, MCC has begun to identify its needs and review its options for an
integrated HR/payroll system. MCC staff members have had preliminary conversations
with NBC and with the Oracle Corporation. Based on these initial conversations, we are
providing clarifications on two of the statements made in the discussion in the report on
this recommendation:

•	     The report states that the Oracle Human Resources Suite (Oracle HR) cannot
   interface with NBC’s system (emphasis added). Although Oracle HR does not
   currently interface with NBC’s system, there have been preliminary discussions
   between MCC and NBC regarding the possibility of building an interface between
   Oracle HR and NBC’s Federal Personnel Payroll System (FPPS).
•	     The report states that the implementation of the Oracle HR system would prevent
   the transmission of certain files to NBC and force MCC to rely on its current methods
   of sending e-mail or hard-copy documents to NBC. MCC believes further review is
   needed before a final conclusion on this issue can be reached. MCC selected
   Oracle HR as a starting point for the review since MCC currently uses Oracle
   Financials, the financial management database used by NBC. Therefore,
   implementing Oracle HR would enable the MCC HR system to easily interface with
   NBC’s Oracle financial package. It also would hopefully interface with NBC’s payroll
   services if it is determined that MCC can not run its payroll through the Oracle



                                                                                       27
                                                                             Appendix II


   system. Therefore, the MCC believes the Oracle HR/payroll systems should
   continue to be a part of the ongoing assessment.

MCC’s next steps are to conduct a thorough needs assessment, identify and conduct
thorough evaluations of the viable options, and select a system. A timetable for the
completion of these tasks has not yet been established, but we plan to develop a
timetable and project plan for this process by June 30, 2006. While MCC expects the
selection and implementation of an integrated HR/payroll system to be a long process, it
is continuing to enhance its existing tools and identify other solutions for improving the
maintenance and tracking of the MCC’s personnel data in the interim. For example,
MCC has begun to generate SF-52 forms, which are used to initiate personnel actions,
in FPPS and transmit the data electronically to NBC, thereby eliminating the need to
complete a paper form and reducing the risk of a data entry error. Also, MCC has begun
to use NBC’s DataMart, a software package that interfaces with FPPS, to access and
report on personnel, benefit, payroll, salary, and equal employment data stored by NBC,
thereby decreasing our dependence on internal databases and spreadsheets.

Recommendation 5: We recommend that the Millennium Challenge Corporation
provide each contracting officer’s technical representative a designation letter for
each contract that he or she manages.

MCC concurs with the recommendation. MCC has placed increased emphasis on
promptly forwarding the COTR designation letter to each COTR. Each existing COTR
will be provided a copy of their designation letter by May 31, 2006 to ensure that all
current COTRs are in receipt of a letter.

Recommendation 6: We recommend that the Millennium Challenge Corporation
formally define the frequency and contents of the progress reports for the
threshold program required from the U.S. Agency for International Development
and communicate these requirements to that Agency.

MCC concurs with the recommendation. MCC met with representatives from the U.S.
Agency for International Development (USAID) MCA Secretariat on March 15, 2006 and
submitted a template defining the format and content of the progress reports for the
threshold program required from USAID. We discussed the template in detail. It calls
for listing the performance objectives of the threshold program, the anticipated results
over the course of implementation, and the actual results as they are achieved.

In the case of Burkina Faso, performance objectives include, among others, the building
of 132 new primary schools, 1,650 girls attending school for the first time, and minimum
attendance rates of 66 percent. MCC is requiring USAID to list projected targets for
these objectives over the course of the two-year program, and then track those targets
periodically.

The Secretariat agreed that this format is acceptable and that they will use it as a basis
for future reporting.
.




                                                                                         28
                                                                          Appendix III


                             Table A-1:
              Status of Eligible Countries by Regions

Country          Fiscal 
     Current        Proposal/Compact Focus       Current Status as
                              Estimated                                   of February 2006
                 Year(s) 

                 Eligible 
   Funding
                              (millions)
                                     LATIN AMERICA
Bolivia                                                                   Due Diligence is
                                                                          pending
                 2004         $598           Micro-business
                 2006

El Salvador                                                               In the proposal
                                                                          development
                 2006         Not            Not defined yet.             stage.
                              defined yet.
                                                                          MCC conducted
                                                                          initial visit to
                                                                          country in
                                                                          December 2005.
Honduras                                                                  Compact signed
                                                                          on June 13, 2005
                 2004         $215           Roads project
                 2006                                                     Reached entry-
                                             Agriculture project          into-force on
                                                                          September 23,
                                                                          2005.

                                                                          First disbursement
                                                                          expected soon.
Nicaragua                                                                 Compact signed
                                                                          on July 14, 2005.
                 2004         $175           Roads
                 2006                        Rural business               Entry-into-force
                                             Property regularization      and first
                                                                          disbursement
                                                                          expected soon.



                                  Francophone Africa
Benin                                     Land project                    Compact
                                                                          approved by
                 2004         $307           Financial services project   Board on
                 2006                                                     January 30, 2006.
                                             Port project
                                                                          Compact signed
                                                                          on February 22,
                                                                          2006.




                                                                                    29 

                                                                                Appendix III


Burkina Faso∗                                   Not defined yet                 In proposal
                                                                                development
                      2006        Not defined                                   stage
                                  yet.


Madagascar                                                                      Compact signed
                                                land tenure/financial sector    on April 18, 2005.
                      2004        $110
                      2006                      reform/agricultural             Entry-into-Force:
                                                                                July 27, 2005
                                                business investment
                                                                                First
                                                                                disbursement of
                                                                                $2.5 million on
                                                                                July 27, 2005

                                                                                Second
                                                                                disbursement on
                                                                                Dec. 31, 2005 of
                                                                                $1.7 million.

                                                                                In implementation
                                                                                phase.
Mali                                                                            In due diligence
                                                Infrastructure                  phase
                      2004        $309
                      2006                      Agricultural development


Morocco                                         Preliminary:                    Preliminary
                                                                                proposal
                      2005        $782          Infrastructure                  submitted on
                      2006                      Rural tourism                   Nov. 15, 2005.
                                                agriculture
Senegal                                         Infrastructure                  Due diligence
                                                                                phase underway.
                      2004        $255
                      2006                                                      $6.5 million in pre-
                                                                                compact
                                                                                assistance


                                            Eurasia
Armenia                                        Rural Road rehabilitation        Compact
                                               project                          approved by
                      2004        $235.6                                        MCC’s Board in
                      2006                      Irrigated Agriculture project   December 2005.

                                                                                Compact signing
                                                                                expected soon.



∗
  Burkina Faso was selected to participate in the Threshold Program in fiscal year 2006. A
threshold plan was signed on July 22, 2005 for $13 million. The two year program focuses on
increasing girls’ primary school enrollment and attendance.


                                                                                          30
                                                                     Appendix III


East Timor                                                         MCC is scheduling
                                                                   its initial visit to
             2006       Not           Not defined yet              the country in
                        defined yet                                March 2006.

Georgia                               Regional infrastructure      Compact signed
                                      Energy sector                on September 12,
             2004       $295.3        rehabilitation/agriculture   2005
             2006
                                                                   Have not reached
                                                                   entry-into-force.

                                                                   Have not received
                                                                   first disbursement
Mongolia                              Housing and business         Proposal
                                      training                     submitted in
             2004       $322                                       September 2005.
             2006                     Health
                                                                   In due diligence
                                      Transportation               phase.
Sri Lanka
                                      Irrigation                   Final proposal
             2004       $589.1                                     submitted
             2006                     Rural roads                  August 1, 2005.
                                      infrastructure
                                                                   In due diligence
                                                                   phase.
Vanuatu                                                            Compact
                                      Transport infrastructure     approved by
             2004       $65.69        (roads, wharves, airport     MCC’s board in
             2006                     landing strips)              January 2006.

                                                                   Compact signing
                                                                   expected soon.

                    Anglophone & Lusophone Africa
Cape Verde                                                         Compact signed
                                                                   on July 4, 2005.
             2004 and   $110          Agriculture project
             2006                                                  Entry-into-Force
                                      Infrastructure project       on Oct. 17, 2005
                                      Private sector               First disbursement
                                      development                  of $7.5 million
                                                                   received on
                                                                   Oct. 17, 2005

                                                                   In implementation
                                                                   phase.
Ghana                                 Agriculture/                 Revised proposal
                                      infrastructure               submitted to MCC
             2004       $517                                       in Oct. 2005.
             2006
                                      Financial                    Due diligence is
                                      services/extension/policy    being conducted.
                                      reform




                                                                                31 

                                                            Appendix III


Lesotho                           Preliminary contents:   Proposal
                                                          development
             2004   $160          Water                   stage.
             2006                 infrastructure
                                                          Revised proposal
                                  Private sector          expected soon.
                                  development
                                                          $1.39 million in
                                                          pre-compact
                                                          assistance.
Mozambique                        Private sector          Revised proposal
                                  development             submitted on
             2004   $262                                  July 1, 2005
             2006                 Water and sanitation
                                                          $6 million for pre-
                                                          compact
                                                          assistance
Namibia                                                   MCC is planning
                                  Not defined yet.        its initial visit to
             2006   Not                                   the country in
                    defined                               March 2006.
                    yet.

Tanzania
                                  Not defined yet.        MCC conducted
             2006   Not                                   its initial visit to
                    defined yet                           the country in
                                                          February 2006.

The Gambia
                                  Not define yet.         MCC’s initial visit
             2006   Not                                   to the country has
                    defined yet                           been postponed
                                                          until further
                                                          notice.




                                                                         32 

                                                                                Appendix IV




                               Table A-2:
                Status of the MCC’s Threshold Countries

Country                           Funding Level   Indicator Focus    Concept      Threshold       Plan
                                  Requested                           Paper        Program       Signed
                                                                    Submitted     Approved    (Implement
                                                                                                 ation
                                                                                                Phase)
Countries selected in FY 2004
Albania                               $13.9       Control              9             9
                                                  corruption
East Timor                            $5.6        Regulatory           9
                                                  Quality
Kenya                                 $12.0       Control              9
                                                  corruption
Sao Tome and Principe                  $4.0       Fiscal Policy        9
Tanzania                              $11.2       Control              9             9
                                                  Corruption
Uganda                                $10.0       Control              9
                                                  corruption
Yemen                                   *                              9
Countries selected in FY 2005
Burkina Faso                          $12.9       Girls                9             9            9
                                                  Education
Guyana                                $11.5       Fiscal Policy        9
Malawi                                $20.9       Control              9             9            9
                                                  Corruption
Paraguay                              $34.7       Control              9             9
                                                  corruption
Philippines                           $20.0       Control              9
                                                  corruption
Zambia                                $27.0       Control              9
                                                  corruption
Countries Selected in FY 2006
Indonesia                             $50.0             **             9
Jordan                                $25.0             **             9
Kyrgyz Republic                       $15.0             **             9
Moldova                               $21.5             **             9
Ukraine                               $49.0             **             9

*Yemen has been suspended from the Threshold Program due to a material decline in overall

performance on the selection criteria for MCA Compact funding. 

** Information not available at time of audit fieldwork. 





                                                                                          33 

U.S. Agency for International Development 

       Office of Inspector General 

       1300 Pennsylvania Ave, NW 

         Washington, DC 20523 

           Tel: (202) 712-1150 

           Fax: (202) 216-3047 

           www.usaid.gov/oig
